TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Call Volume Associated With the Economic
                Stimulus Payments Made It Difficult to Reach
                        the Internal Revenue Service
                           During Fiscal Year 2008



                                        January 26, 2009

                              Reference Number: 2009-40-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 January 26, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Call Volume Associated With the Economic
                               Stimulus Payments Made It Difficult to Reach the Internal Revenue
                               Service During Fiscal Year 2008 (Audit # 200840034)

 This report presents the results of our review of toll-free telephone access during Fiscal
 Year 2008. The overall objective of this review was to determine the effect that implementation
 of the Economic Stimulus Act of 20081 had on toll-free telephone access after the 2008 Filing
 Season2 and planning for the 2009 Filing Season.

 Impact on the Taxpayer
 Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
 various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
 their tax obligations. However, because of the volume of calls related to the Economic Stimulus
 Act of 2008, taxpayer demand for telephone assistor services increased significantly after the
 2008 Filing Season. The volume of calls received exceeded the IRS’ ability to answer them.
 Thus, it was more difficult for taxpayers to contact the IRS via the telephone for assistance
 during Fiscal Year 2008, particularly after the filing season. The IRS is anticipating additional
 calls regarding the economic stimulus payments during the 2009 Filing Season. If more than this
 call volume materializes, more blocked calls as well as more primary and secondary abandons




 1
   Pub. L. No. 110-185, 122 Stat. 613.
 2
   The filing season is the period from January through mid-April of each year when most individual tax returns are
 filed. All references to the 2008 Filing Season made in this report, unless otherwise specified, are for the period
 from January 1 through April 19, 2008.
                   Call Volume Associated With the Economic Stimulus Payments
                      Made It Difficult to Reach the Internal Revenue Service
                                       During Fiscal Year 2008


will occur.3 Failure to answer the additional volume of calls anticipated will result in the IRS
falling significantly short of its planned performance goals.

Synopsis
Taxpayers made about 189 million calls4 to the IRS toll-free telephone assistance lines during
Fiscal Year 2008. The IRS received approximately 125 million call attempts after the
2008 Filing Season, with approximately 45 million (36 percent) call attempts made to the Rebate
Hotline (the telephone line dedicated to calls related to the economic stimulus payments/rebates).
IRS assistors answered about 17 million calls after the 2008 Filing Season; approximately
4.2 million (24.5 percent)5 were for those taxpayers calling the Rebate Hotline.
Because of the additional call volume associated with the economic stimulus payments, the IRS
continued to struggle with extremely high call volumes after the 2008 Filing Season and did not
achieve some of its fiscal year performance goals. The ability of taxpayers to access the toll-free
telephone system was much lower than that in prior years. For example, the IRS had planned to
achieve an 82 percent Level of Service and a 270-second Average Speed of Answer.6 Instead,
through August 30, 2008, it achieved a 54 percent Level of Service and a 589-second Average
Speed of Answer.
With the increase in call demand, total blocked calls increased by 20.5 million from Fiscal
Year 2007. A blocked call is one that cannot be connected immediately because either 1) no
circuit is available at the time the call arrives (i.e., the taxpayer receives a busy signal), or 2) the
system is programmed to block calls from entering the queue when the queue backs up beyond a
defined threshold (i.e., the taxpayer receives a recorded announcement to call back at a later
time). The IRS refers to the latter type of blocked call as a courtesy disconnect. Primary
abandons and secondary abandons increased by 20.8 million and 8.8 million, respectively, from
those that occurred in Fiscal Year 2007.
The IRS estimates that about 70 percent of the calls associated with economic stimulus payments
occurred during Fiscal Year 2008, with 4.9 million (30 percent) to occur during Fiscal
Year 2009. The IRS anticipates that about 3.3 million (68 percent) of the calls will occur during


3
  A primary abandon occurs when the IRS blocks a taxpayer from reaching an assistor or the taxpayer hangs up. A
secondary abandon occurs when a taxpayers hangs up while waiting in the queue for the next available assistor.
4
  These calls were made to the suite of 19 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data for Fiscal Year 2008 are for Customer Account Services
Toll-Free telephone assistance lines for the period October 1, 2007, through August 30, 2008.
5
  Percentages were calculated using actual numbers rather than rounded numbers.
6
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                                     2
                    Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008


the Second Planning Period7 of Fiscal Year 2009. The Second Planning Period includes the
filing season, which is normally the IRS’ busiest time of the year for telephone service. The IRS
encountered a significant number of repeat call attempts from taxpayers trying to reach an
assistor and believes this taxpayer behavior masks the true demand for assistor services. Thus,
the IRS stated that in accordance with industry practice, it removed most of this inflated demand
from calculations for its Fiscal Year 2009 estimates. However, using the IRS projected
percentages for calls about the economic stimulus payments and assistor demand received, we
estimated that the additional call volume could be 8.6 million if taxpayer calling patterns remain
the same.8
The IRS plans to increase its Full-Time Equivalents9 by about 850 for the 2009 Filing Season.
IRS staff indicated that this number will be adequate to answer the anticipated call volume.
Based on historical data, these additional Full-Time Equivalents will provide the capacity to
answer about 4.5 million calls during the 2009 Filing Season.10 This is more than 4.1 million
short of our estimate of 8.6 million calls. Many callers will encounter courtesy disconnects, busy
signals, or long wait times if the additional call volume materializes.

Recommendations
The Commissioner, Wage and Investment Division, should 1) amend the telephone scripts to
alert taxpayers waiting to speak with an assistor that they could experience longer wait times or
be unable to speak with an assistor if the call volume received during the 2009 Filing Season
increases significantly above that planned, in addition to providing information to taxpayers
about the services available on IRS.gov (the IRS web site), and 2) provide each caller with the
estimated wait time to speak with an assistor.

Response
IRS management did not formally agree with Recommendation 1 but agreed with
Recommendation 2. IRS management stated that Recommendation 1 was part of their standard
mode of operation, and therefore no further corrective actions are planned. With regard to
Recommendation 2, IRS management indicated that six applications currently have the feature
that provides each caller with the estimated wait times. Future expansion of wait times,



7
  The Second Planning Period is January through June of each year.
8
  Call volume could range from 8.6 million to 11.5 million.
9
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,096 staff
hours. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff hours.
10
   Based on 2008 Filing Season data of 16.1 million calls answered with 3,100 Full-Time Equivalents.
                                                                                                                  3
                  Call Volume Associated With the Economic Stimulus Payments
                     Made It Difficult to Reach the Internal Revenue Service
                                      During Fiscal Year 2008


including the rebate applications, will take place pending Modernization and Information
Technology Services organization priorities and funding.
Additionally, IRS management disagreed with some of the language we used in the report. IRS
management disagreed with our portrayal that taxpayers experienced difficulty contacting the
IRS throughout Fiscal Year 2008. The IRS stated the difficulty occurred primarily in the
post-filing season period of May through August 2008. The IRS took exception that for our
reporting purposes we defined Fiscal Year 2008 as the period from October 1, 2007, through
August 30, 2008. The IRS also disagreed with our estimation techniques, noting that we did not
use all of the IRS’ planning projections and used an alternate model to arrive at total taxpayer
economic stimulus payment demand. Management’s complete response to the draft report is
included as Appendix IV.

Office of Audit Comment
Concerning the first recommendation to amend the telephone scripts to alert taxpayers waiting to
speak with an assistor that they could experience longer wait times, the IRS stated that our
recommendation was part of their standard mode of operation. As call demand warrants, the IRS
stated that it already reacts with appropriate telephone script announcements, and therefore no
further corrective actions are planned. However, the IRS does not announce to taxpayers when
the telephones are experiencing heavy call volumes or suggest that they may want to call back
when the telephones are less busy. The IRS does announce to taxpayers when it is experiencing
extremely high call volumes that require it to disconnect taxpayers.
Management disagreed with our portrayal that taxpayers experienced difficulty contacting the
IRS throughout Fiscal Year 2008. However, the IRS had planned to achieve an 82 percent Level
of Service and a 270-second Average Speed of Answer for Fiscal Year 2008. The Level of
Service for Fiscal Year 2008 was 52.8 percent and the Average Speed of Answer was
626 seconds. The IRS uses data from the entire fiscal year to calculate these performance
measures.
     •   For the 2008 Filing Season, the IRS had planned to achieve an 81.1 percent Level of
         Service and a 270-second Average Speed of Answer. Instead, it achieved a 77.4 percent
         Level of Service and a 347-second Average Speed of Answer.11
     •   Through August 30, 2008, the IRS achieved a 54 percent Level of Service and a
         589-second Average Speed of Answer, indicating that the ability of taxpayers to access
         the toll-free telephone system was lower than that in prior years.



11
  Increased Call Volume Associated With Economic Stimulus Payments Reduced Toll-Free Access for the
2008 Filing Season (Reference Number 2008-40-168, dated August 29, 2008).
                                                                                                      4
                Call Volume Associated With the Economic Stimulus Payments
                   Made It Difficult to Reach the Internal Revenue Service
                                    During Fiscal Year 2008


Our time period for testing ended August 30, 2008; thus, we clarified the time period for which
we were presenting results.
The IRS also explained the overall effect of single callers making repeated call attempts in the
same day but did not provide us with specific rates by which we could reasonably reduce our
estimate. We shared our results with the IRS and fully disclosed our methodology in the report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                   5
                      Call Volume Associated With the Economic Stimulus Payments
                          Made It Difficult to Reach the Internal Revenue Service
                                           During Fiscal Year 2008




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Toll-Free Telephone Assistance Performance Fell Far
          Short of Two Key Fiscal Year 2008 Performance Goals .............................Page 4
          The Economic Stimulus Payments Might Affect Key Toll-Free
          Telephone Assistance Performance Measures in the
          2009 Filing Season........................................................................................Page 11
                    Recommendation 1:........................................................Page 13

                    Recommendation 2:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
      Call Volume Associated With the Economic Stimulus Payments
          Made It Difficult to Reach the Internal Revenue Service
                           During Fiscal Year 2008




                     Abbreviations

CAS            Customer Account Services
IRS            Internal Revenue Service
                    Call Volume Associated With the Economic Stimulus Payments
                        Made It Difficult to Reach the Internal Revenue Service
                                         During Fiscal Year 2008




                                              Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
                                          their tax obligations. Taxpayers made about 189 million
                                          calls1 to the IRS toll-free telephone assistance lines
                                          during Fiscal Year 2008. About 62.7 million of these
                                          calls were made to the toll-free telephone number
                                          that taxpayers call to ask account or tax law questions
                                          (1-800-829-1040). In addition, about 10.8 million calls
                                          were made to the IRS automated TeleTax system that
                                          provides recorded tax law and tax refund information.
                                          The toll-free telephone assistance lines are further
                                          sub-divided into categories called “applications,” each of
  Taxpayers made about 189 million        which is staffed with a group of assistors who have
  calls to the IRS toll-free telephone    received specialized training to assist taxpayers with
        assistance lines during           specific tax issues. Assistors answer taxpayer questions
            Fiscal Year 2008.
                                          involving tax law and tax account conditions such as
                                          refunds, balance-due billing activity, and changes to the
amount of tax owed. For example, if an individual taxpayer calls to find out where to mail a tax
return, the call would be routed to an assistor who has been trained to handle IRS procedural
issues for individual taxpayers. If a business taxpayer calls to find out the taxes due on a
business account, the call would be routed to an assistor who handles balance-due questions for
business taxpayers. Figure 1 shows the number of calls answered,2 by product line, during Fiscal
Year 2008.




1
  These calls were made to the suite of 19 telephone lines the IRS refers to as “Customer Account Services
Toll-Free” and included calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data for Fiscal Year 2008 are for Customer Account Services
Toll-Free telephone assistance lines for the period October 1, 2007, through August 30, 2008.
2
  All references to calls answered made in this report, unless otherwise specified, are for calls answered by assistors.
                                                                                                                Page 1
                     Call Volume Associated With the Economic Stimulus Payments
                         Made It Difficult to Reach the Internal Revenue Service
                                          During Fiscal Year 2008



                   Figure 1: Toll-Free Telephone Service Product Lines and
                      Number of Calls Answered During Fiscal Year 20083

                                                        Remaining 11 CAS        Individual Income
                             Rebate Hotline,
                                                         Toll-Free Product        Tax Services,
                             5,210,308, 14%
                                                       Lines, 2,518,766, 7%      12,206,255, 31%
     Business Master File
     Customer Response,
        1,900,038, 5%




       Small Business/
        Self Employed
    Individual Master File
    Customer Response,                                                                                  Business and
        3,034,408, 8%                                                                               Specialty Tax Services
                                                                       Wage & Investment             Line, 3,386,922, 9%
                                                                      Individual Master File
                       Refund Hotline,         Refund Call Back,
                                                                      Customer Response,
                        1,983,511, 5%            3,626,288, 9%
                                                                         4,661,646, 12%

    Source: IRS Enterprise Telephone Data Warehouse.4

Assistors are available to answer the toll-free telephone lines at 24 call centers located
throughout the United States and Puerto Rico. The Director, Customer Account Services (CAS),
Wage and Investment Division, manages tax law and account telephone calls through the Joint
Operations Center.
The Economic Stimulus Act of 20085 was passed in February 2008, after the IRS had completed
planning for the 2008 Filing Season. The Act was passed to provide economic stimulus through
recovery rebates to individuals, incentives for business investment, and an increase in
conforming and Federal Housing Authority loan limits. About 130 million taxpayers were
expected to receive economic stimulus payments (also referred to as rebates) beginning in late


3
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes. The Individual Master
File is the IRS database that maintains transactions or records of individual tax accounts.
4
  The IRS Enterprise Telephone Data Warehouse is the official source for all data related to toll-free telephone
measures and indicators.
5
  Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                                      Page 2
                Call Volume Associated With the Economic Stimulus Payments
                    Made It Difficult to Reach the Internal Revenue Service
                                     During Fiscal Year 2008



April and early May 2008. During Fiscal Year 2008, rebate call volumes fluctuated, reaching a
peak volume of 1.7 million in 1 day.
This review was performed at the Joint Operations Center in Atlanta, Georgia, during the period
June through September 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective. The
scope of this audit did not include an evaluation of the quality of toll-free telephone services.
The performance data presented were provided by IRS management information systems. We
did not verify the accuracy of these data because of resource limitations. Detailed information
on our audit objective, scope, and methodology is presented in Appendix I. Major contributors
to the report are listed in Appendix II.




                                                                                            Page 3
                   Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008




                                      Results of Review

Toll-Free Telephone Assistance Performance Fell Far Short of Two
Key Fiscal Year 2008 Performance Goals
Because of the additional call volume associated with the economic stimulus payments, the IRS
continued to struggle with extremely high call volumes after the 2008 Filing Season6 and did not
achieve some of its fiscal year performance measures. For Fiscal Year 2008, the IRS had
planned to achieve an 82 percent Level of Service and a 270-second Average Speed of Answer.7
Instead, through August 30, 2008, it achieved a 54 percent Level of Service and a 589-second
Average Speed of Answer, indicating that the ability of taxpayers to access the toll-free
telephone system was lower than that in prior years. Assistor Calls Answered increased by
6.6 million. Figure 2 shows the actual performance measures for the last 4 fiscal years.
                     Figure 2: Comparison of the Performance Measures
                                 for Fiscal Years 2005–2008

           Performance Measures               2005            2006            2007            2008*

           Level of Service                  83.0%            81.9%           81.3%           54.0%

           Average Speed of
                                               250             241             270             589
           Answer (seconds)
           Assistor Calls
                                               31.8            31.4            31.9            38.5
           Answered (millions)
          * = Data are through August 30, 2008, and comparable periods for prior years.
          Source: IRS Enterprise Telephone Data Warehouse.




6
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2008 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 19, 2008.
7
  Level of Service is the IRS’ primary measure of providing taxpayers with access to an assistor. Average Speed of
Answer is the average number of seconds taxpayers waited in the queue (on hold) before receiving services.
                                                                                                            Page 4
                                             Call Volume Associated With the Economic Stimulus Payments
                                                 Made It Difficult to Reach the Internal Revenue Service
                                                                  During Fiscal Year 2008



High call volumes affected toll-free telephone system access for Fiscal Year 2008
As shown in Figure 3, call volume usually decreases after the filing season, as it did in
     Figure 3: Assistor Demand in               Fiscal Year 2007. However, due to calls about
      Fiscal Years 2007 and 2008                the economic stimulus payments and taxpayers
                                                repeatedly trying to call, not only did demand
                   4
                                                not decrease, it increased significantly after the
                                                2008 Filing Season. Because of this, the IRS
                   3
                                                did not achieve its Fiscal Year 2008 toll-free
                                                telephone assistance performance measurement
     In Millions




                   2
                                                goals for Level of Service and Average Speed
                                                of Answer.
                   1


                                                   The IRS received approximately 125 million
                   -
                                                   call attempts after the 2008 Filing Season, with
                                CAS Assistor Demand 2008   CAS Assistor Demand 2007

                                                   about 45 million (36 percent) call attempts
                                         9




                                                   9




                                                              8




                                                                                 7




                                                                                        6
                           10
                     9




                                                                       8
                                       4/




                                                 5/




                                                                               8/




                                                                                      9/
                   2/




                                                           6/




                                                                     7/
                         3/




  Source: IRS Enterprise Telephone Data Warehouse.
                                                   made to the Rebate Hotline (the telephone line
                                                   dedicated to calls related to the economic
                                                   stimulus payments/rebates). IRS assistors
answered about 17 million calls after the 2008 Filing Season; approximately 4.2 million
(24.5 percent)8 of the calls answered were for those taxpayers calling the Rebate Hotline.
Two of the IRS’ most important telephone assistance measures are whether a taxpayer is able to
speak with an assistor when desired and how quickly a taxpayer speaks with an assistor. The
goal for Assistor Level of Service for Fiscal Year 2008 was 82 percent. Because the IRS did not
anticipate meeting the 82 percent Assistor Level of Service goal for Fiscal Year 2008, it was
allocating available resources to achieve a Level of Service of 54 percent as of August 30, 2008.
Similarly, the Fiscal Year 2008 Average Speed of Answer goal was 270 seconds (4.5 minutes),
but calls were answered in 589 seconds (9.8 minutes). The goals were not met because caller
demand after the 2008 Filing Season exceeded the IRS’ ability to provide services. This is
atypical for the IRS because calls usually decrease after the filing season, allowing some
assistors to discontinue answering calls and work correspondence. For Fiscal Year 2008, actual
assistor demand was greater than 84.3 million calls compared to a planned demand of
51.2 million calls.
The IRS expected and planned for 31 million calls to be answered by assistors and 22.1 million
calls to be answered on the automated lines for Fiscal Year 2008. However, the IRS answered
38.5 million assistor calls and 50.9 million calls on the automated lines, including 9.2 million
calls answered by toll-free telephone assistors and 25.3 million automated calls related to the
rebates.


8
    Percentages were calculated using actual numbers rather than rounded numbers.
                                                                                                    Page 5
                   Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008



Additionally, the IRS planned to provide approximately 36.6 million toll-free telephone assistor
services in Fiscal Year 2008. Instead, it provided 44 million assistor services due to the rebate
call volume. Generally, one service equates to one or more taxpayer questions answered by one
assistor. For example, one call might result in the IRS counting three services provided for one
taxpayer 1) asking a tax law question and requesting a form (two questions equals one service by
one tax law assistor), 2) asking the status of an Employer Identification Number (one service by
a business assistor), and 3) asking the status of the customer’s individual account (one service by
an individual account assistor).
For the last 3 fiscal years, services provided by CAS function assistors averaged 36.8 million.
For Fiscal Year 2008, services provided by CAS function assistors, including rebate calls, totaled
44 million. As a result of the Economic Stimulus Act of 2008, the CAS function assistor
services provided increased by 17.7 percent over those provided in Fiscal Year 2007. The IRS
also estimates that assistors in other CAS applications provided 50.9 percent of the rebate
services. This happened when a taxpayer called a toll-free telephone line other than the rebate
line and had a rebate-related question.
As shown in Figure 4, the number of toll-free telephone services provided during
Fiscal Year 2008 (94.9 million) was significantly greater than that provided during each of the
last 3 fiscal years.
            Figure 4: Comparison of Toll-Free Telephone Services Provided
                        for Fiscal Years 2005–2008 (in millions)

      Services Provided                             2005            2006             2007       2008*

      Automated Services Provided9                  25.4            24.0             22.8        50.9

      Assistor Services Provided                    36.9            36.1             37.4        44.0

      Totals                                        62.3            60.1             60.2        94.9

     * = Data are through August 30, 2008, and comparable periods for prior years.
     Source: IRS Enterprise Telephone Data Warehouse.

The IRS blocked more calls and more taxpayers abandoned calls (disconnected)
in Fiscal Year 2008
With the increase in call demand, total blocked calls increased by 20.5 million from Fiscal
Year 2007. A blocked call is one that cannot be connected immediately because either 1) no
circuit is available at the time the call arrives (i.e., the taxpayer receives a busy signal), or 2) the


9
 The Automated Services Provided category does not include the number of services provided by the Internet
Refund Fact of Filing application. Automated Services Provided equals Automated Calls Answered.
                                                                                                        Page 6
                   Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008



system is programmed to block calls from entering the queue when the queue backs up beyond a
defined threshold (i.e., the taxpayer receives a recorded announcement to call back at a later
time). The IRS refers to the latter type of blocked call as a courtesy disconnect. The IRS
blocked more calls during this fiscal year than the 3 prior fiscal years.
Primary abandons and secondary abandons increased by 20.8 million and 8.8 million,
respectively, from those that occurred in Fiscal Year 2007.10 Figure 5 shows a comparison of the
various components (workload indicators) the IRS uses to manage the Level of Service.
            Figure 5: Comparison of Toll-Free Telephone Level of Service
           Components and Workload Indicators for Fiscal Years 2005–2008

          Components                                       2005         2006        2007       2008*

          Average Speed of Answer (seconds)                 250          241         270        589

          Busy Signals (millions)                           0.5          0.4         0.6        1.2

          Courtesy Disconnects (millions)                   1.1          1.9         0.9       20.8

          Total Blocked Calls (millions)                    1.6          2.3         1.5       22.0

          Primary Abandons (millions)                       10.6         11.4        12.5      33.3

          Secondary Abandons (millions)                     5.1          4.6         5.7       14.5
         * = Data are through August 30, 2008, and comparable periods for prior years.
         Source: IRS Enterprise Telephone Data Warehouse.

Although the IRS retained as many assistors as possible to answer calls, maintained average
handle time11 below that planned for Fiscal Year 2008, and provided more services than planned,
its two key measures were not achieved because the volume of calls received exceeded the IRS’
ability to answer them.

Call volumes increased sharply after taxpayers began receiving the economic
stimulus payments and second notices about the payments
In keeping with the intent of the Economic Stimulus Act of 2008, the IRS tried to ensure that
everyone who is entitled to the stimulus payment knows what to do to receive it. For example,
the IRS sent notices and tax packages to taxpayers, held special events to advertise the rebates


10
   A primary abandon occurs when the IRS blocks a taxpayer from reaching an assistor or the taxpayer hangs up. A
secondary abandon occurs when a taxpayer hangs up while waiting in the queue for the next available assistor.
11
   Average Handle Time is a measure of the average amount of time (seconds) an assistor spent assisting the
customer. This measure includes talk, hold, and wrap (after call work) times.
                                                                                                         Page 7
                                      Call Volume Associated With the Economic Stimulus Payments
                                          Made It Difficult to Reach the Internal Revenue Service
                                                           During Fiscal Year 2008



and help taxpayers complete forms, and advertised on its public Internet web site (IRS.gov) as
well as on other government web sites.
Nevertheless, a great number of taxpayers called the IRS to obtain information about the rebates.
Figure 6 shows the call volumes from the time the Economic Stimulus Act of 2008 was passed
through August 30, 2008, and compares the call volumes to the dates the notices and tax
packages were sent.
                                             Figure 6: Economic Stimulus Payment Calls
                                                   for February 16–August 30, 2008
                            Economic Stimulus                    First Economic Stimulus
                            Act of 2008 Passed –                 Payments Processed –
                       14   February 13, 2008                    April 22, 2008


                                      Start date for first             Start date for second
                       12
                                      notice to general                notice to general
                                      population –                     population –
                                      March 4, 2008                    April 30, 2008
                       10
    In Millions




                                           Start date for                                                              Start date for 1040A-4
                       8                   1040A-3 packages to                                                         packages to non-filer
                                           non-filer population –                                                      population –
                                           March 15, 2008                                                              July 21, 2008
                       6



                       4



                       2



                   -
                                  1

                                          8




                                                        5




                                                                         3




                                                                                             7




                                                                                                             5




                                                                                                                              2

                                                                                                                                      9
                      16

                      23




                                         15

                                         22

                                         29



                                                       12

                                                       19

                                                       26



                                                                        10

                                                                        17

                                                                        24

                                                                        31



                                                                                            14

                                                                                            21

                                                                                            28



                                                                                                            12

                                                                                                            19

                                                                                                            26




                                                                                                                                     16

                                                                                                                                     23

                                                                                                                                     30
                               3/

                                       3/




                                                     4/




                                                                      5/




                                                                                          6/




                                                                                                          7/




                                                                                                                           8/

                                                                                                                                   8/
                   2/

                   2/




                                      3/

                                      3/

                                      3/



                                                    4/

                                                    4/

                                                    4/



                                                                     5/

                                                                     5/

                                                                     5/

                                                                     5/



                                                                                         6/

                                                                                         6/

                                                                                         6/



                                                                                                         7/

                                                                                                         7/

                                                                                                         7/




                                                                                                                                  8/

                                                                                                                                  8/

                                                                                                                                  8/




                                            CAS 2008 Total Number Dialed Attempts              Rebate Total Number Dialed Attempts
                                            CAS 2007 Total Number Dialed Attempts

          Source: IRS Enterprise Telephone Data Warehouse.

•                 From March 4 through March 22, 2008, the IRS sent Economic Stimulus Payment Notices
                  (Notice 1377) to more than 130 million taxpayers who filed a Tax Year 2006 income tax
                  return, at an estimated cost of $45 million to print and mail. This advance Notice was
                  informational only and did not require a response from the taxpayer. The Notice did not
                  provide an IRS telephone number for taxpayers to call but included the IRS.gov address.
                  The IRS believed that it would receive significantly fewer calls to its toll-free telephone
                  information line as a result of issuing the advance Notice.


                                                                                                                                          Page 8
                Call Volume Associated With the Economic Stimulus Payments
                    Made It Difficult to Reach the Internal Revenue Service
                                     During Fiscal Year 2008



    Calls did not increase significantly after Notices 1377 were sent. However, calls also did not
    decline. The majority of the calls about the rebates during the 2008 Filing Season focused on
    eligibility and how to complete and/or file the required forms.
•   From March 15 through March 21, 2008, the IRS sent the new tax package Information
    About Economic Stimulus Payments for Social Security, Veterans, and Other Beneficiaries
    (Package 1040A-3) to more than 20 million individuals who normally do not have to file tax
    returns (e.g., those who receive Social Security Administration and Department of Veterans
    Affairs benefits) but might qualify for the economic stimulus payment. Call volume
    remained steady after this Package was sent.
•   On April 30, 2008, the IRS began mailing the second notice, Understanding Your Economic
    Stimulus Payment (Notice 1378), to every taxpayer eligible to receive an economic stimulus
    payment. This Notice advised taxpayers of the amount of their payments, when to expect
    them, and what they needed to do. Some taxpayers might have received this Notice after
    receiving their economic stimulus payments via direct deposit.
    Call volume increased significantly after issuance of these Notices and economic stimulus
    payments. For example, CAS call attempts were 3.2 million for the week ending prior to
    issuance of the Notice but increased to 7.1 million for the week ending May 3, 2008, and
    increased again to 13.1 million for the week ending May 10, 2008.
    Call attempts to the Rebate Hotline were about 431,000 for the week ending prior to issuance
    of the Notice but increased to 1.7 million for the week ending May 3, 2008, and increased
    again to 4.7 million for the week ending May 10, 2008.
    Finally, CAS call attempts increased to 14.3 million for the week ending May 17, 2008, and
    Rebate Hotline call attempts peaked at 6.5 million calls for the same week. The majority of
    the calls focused on when taxpayers would receive their money, while many other calls were
    from taxpayers providing a new address or confirming the address on file.
•   From July 21 through August 7, 2008, the IRS mailed Packages 1040A-4 as a follow-up to
    Package 1040A-3 to 5.2 million individuals who normally do not file tax returns. The
    volume of calls had been declining at that time, and mailing of this Package did not appear to
    cause a significant increase in call volume.
Figure 7 provides the reasons why taxpayers called the toll-free telephone lines about the
economic stimulus payments from February 13 through August 13, 2008.




                                                                                             Page 9
                       Call Volume Associated With the Economic Stimulus Payments
                           Made It Difficult to Reach the Internal Revenue Service
                                            During Fiscal Year 2008



      Figure 7: Why Taxpayers Called About the Economic Stimulus Payments

                                                       February 13 –
                                                                             April 25 – August 13, 2008
                                                       April 24, 2008
                                               Number                       Number
                                               of Calls                     of Calls
                                                             Percentage                    Percentage
                                                  by                           by
         Reasons for Calling                   Reason                       Reason
         Address                                  64           6.3%           542         10.7%
         Address Verification                     20           2.0%             –           –

         Amount                                   28           2.7%           431          8.5%

         Direct Deposit                           27           2.6%           281          5.6%

         Eligibility                             342          33.5%           463          9.2%

         How to File/Complete the Form           217          21.3%             –           –

         Miscellaneous                            –             –             372          7.4%

         Refund Offset Questions                  86           8.4%           291          5.8%
                                     12
         Refund Anticipation Loans                10           1.0%             –           –
         Unknown Specific Issue/Other
                                                  –             –             329          6.5%
         Issues
         When Will Payment Be Issued?             49           4.8%           2,000       39.6%

              Subtotals                          843          82.6%           4,709       93.3%

       Other                                     178          17.4%           338         6.70%

              Totals                            1,021       100.00%           5,047    100.00%

       Source: Our analysis of the IRS’ National Quality Review System data.13

Although issuance of the first Notice does not appear to have generated calls or influenced the
number of calls to the IRS, more than 50 percent of the calls made after issuance of the first
Notice (from February 13 - April 24, 2008) were on the subjects of eligibility and filing issues.
However, calls increased significantly after issuance of the second Notice. Almost 40 percent of
the callers who called after issuance of the second Notice (from April 25 - August 13, 2008)
called with questions about when they would receive their payments.
Resource limits precluded us from listening to taxpayer calls to determine exactly why taxpayers
called in such high numbers during that time period. Thus, we could not determine whether the

12
   A Refund Anticipation Loan is a short-term loan based on a taxpayer’s expected income tax refund and is a
contract between the taxpayer and a lender.
13
   The National Quality Review System is a database used to house site reviews for the national quality measure and
local reviews performed for quality improvement.
                                                                                                          Page 10
                  Call Volume Associated With the Economic Stimulus Payments
                      Made It Difficult to Reach the Internal Revenue Service
                                       During Fiscal Year 2008



Notices could not or did not answer all the questions presented by the taxpayers or whether
another factor such as a newspaper article or press release triggered the calls. Additionally, some
of the calls could have been made by those who were not eligible to receive a stimulus payment.
We made no recommendation concerning the Notices, but additional analyses might allow the
IRS to determine what to include in future notices to help reduce taxpayer calls to the IRS.
        Management’s Response
        IRS management disagreed with our portrayal that taxpayers experienced difficulty
        contacting the IRS throughout Fiscal Year 2008. The IRS stated the difficulty occurred
        primarily in the post-filing season period of May through August 2008. The IRS also
        took exception that we defined Fiscal Year 2008 as the period from October 1, 2007,
        through August 30, 2008, for our reporting purposes.
        Office of Audit Comment
        The IRS had planned to achieve an 82 percent Level of Service and a 270-second
        Average Speed of Answer for Fiscal Year 2008. The Level of Service for Fiscal
        Year 2008 was 52.8 percent and the Average Speed of Answer was 626 seconds. The
        IRS uses data from the entire fiscal year to calculate these performance measures.
        •   For the 2008 Filing Season, the IRS had planned to achieve an 81.1 percent Level of
            Service and a 270-second Average Speed of Answer. Instead, it achieved a
            77.4 percent Level of Service and a 347-second Average Speed of Answer.14
        •   Through August 30, 2008, the IRS achieved a 54 percent Level of Service and a
            589-second Average Speed of Answer, indicating that the ability of taxpayers to
            access the toll-free telephone system was lower than that in prior years.
        Our time period for testing ended August 30, 2008; thus, we clarified the time period for
        which we were presenting results.

The Economic Stimulus Payments Might Affect Key Toll-Free
Telephone Assistance Performance Measures in the 2009 Filing
Season
The IRS estimates that about 70 percent of the calls associated with economic stimulus
payments occurred during Fiscal Year 2008, with 4.9 million (30 percent) to occur during Fiscal
Year 2009. The IRS anticipates that about 3.3 million (68 percent) of the calls will occur during




14
  Increased Call Volume Associated With Economic Stimulus Payments Reduced Toll-Free Access for the
2008 Filing Season (Reference Number 2008-40-168, dated August 29, 2008).
                                                                                                      Page 11
                   Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008



the Second Planning Period15 of Fiscal Year 2009. The Second Planning Period includes the
filing season, which is normally the IRS’ busiest time of the year for telephone service.
The IRS encountered a significant number of repeat call attempts from taxpayers trying to reach
an assistor. As the call attempts increased, the IRS blocked more calls. The IRS believes this
taxpayer behavior masks the true demand for assistor services and stated that in accordance with
industry practice, it removed most of this inflated demand from calculations for its Fiscal
Year 2009 estimates. However, using the IRS projected percentages for calls about the
economic stimulus payments and assistor demand received, we estimated the additional call
volume could be 8.6 million if taxpayer calling patterns remain the same.16
The IRS plans to increase its Full-Time Equivalents17 by about 850 for the 2009 Filing Season.
IRS staff indicated this number will be adequate to answer the anticipated call volume. Based on
historical data, these additional Full-Time Equivalents will provide the capacity to answer about
4.5 million calls during the 2009 Filing Season.18 This is more than 4.1 million short of our
estimate of 8.6 million calls. Many callers will encounter courtesy disconnects, busy signals, or
long wait times if the additional call volume materializes.
As of October 2, 2008, draft documents provided to us pertaining to the 2009 Filing Season did
not indicate the IRS had changed its primary performance measures to accommodate this
potential volume of calls, although the IRS stated it is reviewing its performance measure targets.
Given the volume attributed to the economic stimulus payments and unusual taxpayer calling
patterns during Fiscal Year 2008, the ability to achieve key toll-free telephone assistance
performance measure goals such as Average Speed of Answer and Level of Service could be at
risk during the 2009 Filing Season.
If the additional call volume materializes, more blocked calls—as well as more primary and
secondary abandons—will occur. Failure to answer the additional volume of calls anticipated
will result in the IRS falling significantly short of its planned performance goals. During the
post-filing season period, the IRS continued to revise its workplans in an effort to monitor its
resource use and to track whether it was on target for meeting its performance measures and
goals.
The IRS is currently developing its workplans for Fiscal Year 2009 and stated it is monitoring
the toll-free telephone operations for adherence to planned hours for assistors. In addition, the
IRS stated it is increasing the performance of the toll-free telephone operations with several
system improvement efforts. It is increasing its Full-Time Equivalents and adding a toll-free

15
   The Second Planning Period is January through June for each year.
16
   Volume could range from 8.6 million to 11.5 million.
17
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,096 staff
hours. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff hours.
18
   Based on 2008 Filing Season data of 16.1 million calls answered with 3,100 Full-Time Equivalents.
                                                                                                          Page 12
                Call Volume Associated With the Economic Stimulus Payments
                    Made It Difficult to Reach the Internal Revenue Service
                                     During Fiscal Year 2008



telephone line for use by victims of identity theft. Other than these changes, the IRS is not
planning any modifications to the toll-free telephone operations in terms of adding dedicated
telephone lines and applications or hours of operation to aid in handling increased call volume
related to the economic stimulus payments.
During Fiscal Year 2008, the IRS implemented the Estimated Wait Time Message Pilot, which
ended in May 2008, for toll-free telephone callers waiting on hold for six toll-free telephone
applications. The Estimated Wait Time Message provides a real-time message that informs
taxpayers about their expected wait time in the queue, allowing them to make more informed
decisions based on the status of their calls. These 6 applications covered 60 percent of the Fiscal
Year 2007 actual call volume. As of July 2008, the IRS had determined that the Estimated Wait
Time Message would continue on the same six applications, with expansion to additional
applications in July 2009.
       Management’s Response
       The IRS disagreed with our estimation techniques, noting that we did not use all of the
       IRS’ planning projections and used an alternate model to arrive at total taxpayer
       economic stimulus payment demand.
       Office of Audit Comment
       The IRS explained the overall effect of single callers making repeated call attempts in the
       same day but did not provide us with specific rates by which we could reasonably reduce
       our estimate. We shared our results with the IRS and fully disclosed our methodology in
       the report.

Recommendations
Recommendation 1: The Commissioner, Wage and Investment Division, should amend the
telephone scripts to alert taxpayers waiting to speak with an assistor that they could experience
longer wait times or be unable to speak with an assistor if the call volume received during the
2009 Filing Season increases significantly above that planned, in addition to providing
information to taxpayers about the services available on IRS.gov.
       Management’s Response: IRS management did not formally agree with this
       recommendation but indicated that our recommendation was part of their standard mode
       of operation. No further corrective actions are planned.
       Office of Audit Comment: The IRS does not announce to taxpayers when the
       telephones are experiencing heavy call volumes or suggest that they may want to call
       back when the telephones are less busy. The IRS does announce to taxpayers when it is
       experiencing extremely high call volumes that require it to disconnect taxpayers.


                                                                                           Page 13
              Call Volume Associated With the Economic Stimulus Payments
                  Made It Difficult to Reach the Internal Revenue Service
                                   During Fiscal Year 2008



Recommendation 2: The Commissioner, Wage and Investment Division, should provide
each caller with the estimated wait time to speak with an assistor.
      Management’s Response: IRS management agreed with the recommendation. IRS
      management indicated that six applications currently have this feature. Future expansion,
      including the rebate applications (Applications 15 and 16), will take place pending
      Modernization and Information Technology Services organization priorities and funding.




                                                                                       Page 14
                   Call Volume Associated With the Economic Stimulus Payments
                       Made It Difficult to Reach the Internal Revenue Service
                                        During Fiscal Year 2008



                                                                                                   Appendix I


          Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine the effect that implementation of the Economic
Stimulus Act of 20081 had on toll-free telephone access after the 2008 Filing Season2 and
planning for the 2009 Filing Season. To accomplish this objective, we:
I.       Determined if the IRS was adequately preparing its toll-free telephone system for the
         2009 Filing Season.
         A. Analyzed the IRS’ planning documents and determined the process used to develop
            workplans for the 2009 Filing Season.
         B. Determined if the IRS implemented any new operational processes to improve
            taxpayer access to the toll-free telephone system for the post-2008 Filing Season
            period.
         C. Determined the process used to monitor call volumes and respond to any
            unanticipated changes in call patterns or problems taxpayers experience accessing the
            toll-free telephone system.
II.      Determined if the IRS was achieving its post-2008 Filing Season toll-free performance
         measures and indicators.
         A. Reviewed IRS performance measures for the toll-free telephone system, including
            any new measures or indicators.
         B. Monitored reports to determine if toll-free performance measures and indicators were
            achieving post-2008 Filing Season and Fiscal Year 2008 goals. This included
            comparing post-2008 Filing Season performance to that in prior post-filing season
            periods.
         C. If the IRS was not achieving its goals, determined why.
         D. Determined why significant numbers of taxpayers called the toll-free telephone
            system about the economic stimulus payments and what plans the IRS has to alleviate
            this in the future.


1
  Pub. L. No. 110-185, 122 Stat. 613.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2008 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 19, 2008.
                                                                                                           Page 15
               Call Volume Associated With the Economic Stimulus Payments
                   Made It Difficult to Reach the Internal Revenue Service
                                    During Fiscal Year 2008



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Patricia A. Jackson, Lead Auditor
Jackie E. Forbus, Senior Auditor
M. Jean Bell, Auditor
Jerry Douglas, Auditor




                                                                                    Page 16
               Call Volume Associated With the Economic Stimulus Payments
                   Made It Difficult to Reach the Internal Revenue Service
                                    During Fiscal Year 2008



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 17
    Call Volume Associated With the Economic Stimulus Payments
        Made It Difficult to Reach the Internal Revenue Service
                         During Fiscal Year 2008



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 18
Call Volume Associated With the Economic Stimulus Payments
    Made It Difficult to Reach the Internal Revenue Service
                     During Fiscal Year 2008




                                                      Page 19
Call Volume Associated With the Economic Stimulus Payments
    Made It Difficult to Reach the Internal Revenue Service
                     During Fiscal Year 2008




                                                      Page 20
Call Volume Associated With the Economic Stimulus Payments
    Made It Difficult to Reach the Internal Revenue Service
                     During Fiscal Year 2008




                                                      Page 21
